U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          NATIONAL INSTITUTE OF
     STANDARDS AND TECHNOLOGY

             Additional Improvements Needed
            To Strengthen NIST’s Information
                            Security Program


   Final Inspection Report No. OSE-15078/September 2002




                            PUBLIC
                            RELEASE



                         Office of Systems Evaluation

U.S. Department of Commerce                                                             Final Inspection Report OSE-15078 

Office Of Inspector General                                                                                September 2002


                                                         CONTENTS 


EXECUTIVE SUMMARY ................................................................................................. i 


INTRODUCTION .............................................................................................................. 1 


BACKGROUND ................................................................................................................ 3 


OBJECTIVES, SCOPE, AND METHODOLOGY............................................................ 5 


FINDINGS AND RECOMMENDATIONS....................................................................... 7 


I.    NIST Is Taking Steps To Improve Its Information Security Program ........................ 7


II. Information Security Policy and Procedures Are Missing Key Control Elements ..... 8 

    A. NIST Lacks A Comprehensive Security Program Policy ..................................... 8 

    B. Draft Certification and Accreditation Procedures Should Be Strengthened ......... 9


III.	 Management Controls Are Not Fully Implemented and Schedules Are Unrealistic 

      For Achieving Adequate Product Content and Quality............................................. 10 

      A. Risk Assessments Have Not Been Completed .................................................... 10 

      B. Systems Are Operational with Only Draft Security Plans in Effect ................... 11 

      C. Systems Are Not Accredited ............................................................................... 11 

      D. Deadlines for Security Plans and Accreditations Are Unrealistic....................... 12 

      E. System Inventory May Not Reflect Actual Number of Operational Systems .... 14


IV. Security Controls Are Not Extended to External Collaborators and Researchers..... 15


V. 	 Risk Levels for Positions Have Not Been Properly Assigned................................... 16


VI.	 NIST Has Not Implemented a Capital Asset Planning Process................................. 17


VII. Proactive Attention from NIST Senior Management Could Improve Information 

     Security ...................................................................................................................... 19


ATTACHMENT…………………………………………………………………………24
U.S. Department of Commerce                                          Final Inspection Report OSE-15078 

Office Of Inspector General                                                             September 2002


                                    EXECUTIVE SUMMARY 


Information technology is critical to NIST’s mission. Much of NIST’s research and other
work depends on computer models, computer data, and other electronic information.
With this increasing reliance on computing technologies, including the use of the Internet
and its related information dissemination techniques, the potential for loss, compromise,
and misuse of NIST data and systems grows daily.

The objective of our evaluation was to determine whether NIST’s information security
program for unclassified systems complies with the Government Information Security
Reform Act (GISRA), which mandates that federal agencies have effective security for
the information resources supporting their operations and assets. Using NIST’s Security
Self-Assessment Guide for Information Technology Systems, as recommended by OMB,
we evaluated NIST’s information security policies and procedures, roles and
responsibilities, and adherence to applicable laws, regulations, and guidance.

We found that NIST is taking steps to improve information security such as increasing its
computer security staff, developing issue specific security policies, and implementing a
formal computer security incident reporting and handling process. Yet many important
security requirements have not been met. Our evaluation found the following issues:

• 	 NIST lacks a comprehensive information security program policy. Its current policy
    does not address critical roles and responsibilities and management control elements,
    such as risk management, review of security controls, and certification and
    accreditation1 that are required by GISRA. (See page 8.)

• 	 NIST’s policy assigns responsibility for authorizing system operations (also called
    accreditation) to the CIO, but not to the senior official whose mission the system
    supports. The CIO and the appropriate senior official should be co-accrediting
    officials. (See page 9.)

• 	 None of NIST’s 109 identified operational systems has a documented risk assessment
    or an approved security plan. Moreover all but two lack accreditation. (See pages 10
    and 11.)

• 	 NIST has established a schedule to complete its risk assessments, security plans, and
    accreditations. We are concerned however, that the schedule may be too ambitious to
    permit sufficient analysis, documentation, and review. (See page 12.)

• 	 NIST’s Sensitive Information Technology System Inventory did not include at least
    three operational systems from one laboratory, suggesting that there may be


1
 Certification is the formal testing of the security safeguards implemented in a computer system to
determine whether they meet applicable requirements and specifications. Accreditation is the formal
authorization by management for system operation, including an explicit acceptance of risk.



                                                    i
U.S. Department of Commerce                                  Final Inspection Report OSE-15078 

Office Of Inspector General                                                     September 2002


   additional systems at NIST that have not been identified and should be included in
   that inventory. (See page 14.)

• 	 NIST does not ensure that external researchers and collaborators who have no further
    need for system user accounts are removed from NIST computer systems in a timely
    manner, thus leaving its systems vulnerable to unauthorized access. (See page 15.)

• 	 Risk designations assigned to some positions are inconsistent with their levels of
    responsibility and trust. Employees filling these positions have not received the
    appropriate level of background investigation, thus increasing the potential for an
    individual in a position of public trust to potentially cause harm to the efficiency and
    integrity of NIST programs and operations. (See page 16.)

• 	 NIST does not have a process in place for effectively planning and controlling
    information technology investments across the organization and therefore lacks a
    means of ensuring that information security requirements and costs are appropriately
    addressed in capital asset planning. (See page 17.)

• 	 NIST does not have a CIO; its CIO office resides in the Information Technology
    Laboratory (ITL) and reports to ITL’s acting director, who also serves as the acting
    CIO. We believe that an empowered CIO—that is, one that has the support of the
    NIST director and sufficient resources—is essential for improving NIST’s
    information security program, as well as its management of its IT resources in
    general. (See page 20.)

Since the completion of our fieldwork, the director of NIST has taken important steps
toward improving information security by issuing a memorandum acknowledging his
responsibility for the security of NIST’s data and IT systems and directing all members of
NIST’s upper management to give information security high priority and ensure that the
agency’s policies, procedures, and operational environment are exemplary. (See page
20.)

We made numerous recommendations for improving information security (see pages 10,
14, 16, 17, 19, and 21).
                                      …

NIST’s response to our draft report stated that it generally agreed with our findings and
recommendations and described actions being taken or planned. Following each set of
recommendations, we have included a brief synopsis of NIST’s response and, where
appropriate, our comments.

Although the response indicates that the schedule for accreditation has been extended, we
remain concerned that it still does not allow enough time to adequately complete all
needed analysis, documentation, and testing. We discuss NIST’s response and our
concerns regarding this matter on page 14. NIST’s response to our draft report is
included in its entirety as the attachment.


                                              ii
U.S. Department of Commerce                                        Final Inspection Report OSE-15078 

Office Of Inspector General                                                           September 2002


                                       INTRODUCTION 


Automated teller machines, atomic clocks, mammograms, and semiconductors are among
the innumerable products and services that rely in some way on the work of the National
Institute of Standards and Technology (NIST). NIST's mission is to develop and promote
measurements, standards, and technology to enhance productivity, facilitate trade, and
improve the quality of life. Most of NIST’s work is done at two locations−Gaithersburg,
Maryland, and Boulder, Colorado. The agency has a staff of more than 3,000 full time
scientists, engineers, technicians, and support personnel, plus 1,600 visiting researchers
and 2,000 collaborators at affiliated centers around the country and overseas.

An ever-increasing amount of NIST’s work depends on computer models, computer data,
and other electronic information. With NIST’s increasing reliance on computing
technologies, including the use of the Internet and its related information dissemination
techniques, the potential for loss, compromise, and misuse of NIST data and facilities has
grown tremendously.

The Government Information Security Reform Act (GISRA), Title X, subtitle G, of the
2001 Defense Authorization Act (P.L. 106-398) was signed into law on October 30,
2000. This law contains a subchapter on information security that primarily addresses
managing, implementing, overseeing, and ensuring the security of unclassified and
national security information systems.

Under GISRA, information security is the responsibility of federal agency senior
management—the agency head, senior line managers, and the chief information officer
(CIO). Other senior officials are responsible for assessing security risks associated with
operations and assets for the programs and systems they control. Each agency head is
charged with ensuring the security of information and information systems through
promotion of security as an integral component of that agency’s business operations.
Each head is also charged with ensuring that an information security plan to safeguard the
privacy, confidentiality, and security of federal information is carried out throughout the
life cycle of each system. In turn, the Secretary of Commerce has charged all
departmental operating unit heads with these same responsibilities for their organizations,
directing them to give information security high priority, sufficient resources, and their
personal attention.1

The department CIO is required to administer the information security program agency
wide. This entails developing the security program, ensuring that the program is
effectively implemented and maintained, training and overseeing personnel with
significant responsibilities for information security, and assisting other senior agency
officials with their information security responsibilities.

GISRA also requires all federal agencies to perform annual reviews of their security
programs and the Office of Inspector General (OIG) for each agency to conduct
1
  Memorandum from Donald Evans to Secretarial Officers and Heads of Operating Units, “High Priority to
Information Technology (IT) Security,” July 27, 2001.


                                                  1
U.S. Department of Commerce                              Final Inspection Report OSE-15078
Office Of Inspector General                                                 September 2002

independent evaluations of agency information security programs. As part of our work
under GISRA, this report presents our evaluation of NIST’s agencywide information
security policies and procedures.

Our evaluation was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency and was performed under
the authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended.




                                           2
U.S. Department of Commerce                                  Final Inspection Report OSE-15078 

Office Of Inspector General                                                     September 2002


                                    BACKGROUND
Founded in 1901, NIST is a non-regulatory federal agency within the Department of
Commerce. The agency carries out its mission through four cooperative programs:

       •	   NIST Measurement and Standards Laboratories – Eight laboratories
            employing physical and engineering scientists who provide leadership for
            vital components of the technology infrastructure needed by U.S. industry to
            continually improve its products and services.

       •	   Advanced Technology Program – A competitive program that provides cost
            sharing awards to industry for development of high-risk technologies with
            broad economic potential, such as computer hardware, computer systems, and
            software applications.

       •	   Manufacturing Extension Partnership – A nationwide network of local
            centers offering technical and business assistance to smaller manufacturers.

       •	   Malcolm Baldrige National Quality Award – A highly visible, quality
            outreach program that recognizes business performance excellence and
            achievement by U.S. manufacturers, service companies, educational
            organizations, and health care providers.

NIST’s Allocation of Information Security Responsibilities

Responsibility for information security is distributed among NIST’s operating units
(Figure 1). Key roles and responsibilities are described here and in Appendix A.

According to Chapter 11 of NIST’s Administrative Manual, the director of the
Information Technology Laboratory (ITL), with the approval of the NIST deputy
director, appoints the NIST computer security officer. The computer security officer
develops and implements the computer security program.

Unit directors are required to appoint a security officer to implement the security program
within their units. According to NIST, these responsibilities are generally considered
collateral duties.




                                             3
U.S. Department of Commerce                                         Final Inspection Report OSE-15078
Office Of Inspector General                                                            September 2002

                           Figure 1.      NIST Organization Chart


                  Director Boulder         Director's            Baldrige National
                    Laboratories            Office               Quality Program




      Director for                                          Advanced                    Manufacturing
   Administration &              Technology
                                  Services                 Technology                     Extension
 Chief Financial Officer                                    Program                      Partnership



       Manufacturing          Chemical Science          Materials Science            Electronics and
        Engineering           and Technology            and Engineering           Electrical Engineering
        Laboratory              Laboratory                Laboratory                   Laboratory




                           Information                                      Building and Fire
                                                   Physics
                           Technology                                           Research
                                                  Laboratory
                           Laboratory                                         Laboratory




                                                 4
U.S. Department of Commerce                                        Final Inspection Report OSE-15078 

Office Of Inspector General                                                           September 2002


                     OBJECTIVES, SCOPE, AND METHODOLOGY 


The objective of our evaluation was to determine whether NIST’s information security
program for unclassified systems complies with GISRA, which seeks to achieve effective
security for information resources supporting federal operations and assets. Our
evaluation covered NIST’s information security policies and procedures as well as their
attendant roles and responsibilities, and adherence to applicable laws, regulations, and
guidance.

To satisfy the objective, we reviewed NIST’s information security policies and
procedures, NIST’s self-assessments of information systems and security controls that
comprised its fiscal year 2001 GISRA submission, and its Corrective Plan of Action and
Milestones.

In addition, we interviewed the acting CIO and directors, deputy directors, and
information security officers of the Advanced Technology Program and of the
Manufacturing Engineering, Information Technology, and Physics laboratories. We also
interviewed the director of Human Resources, the NIST computer security officer, and
members of NIST’s budget staff.

We used as criteria OMB Circular A-130,2 Appendix III, Security of Federal Automated
Information Resources; NIST’s Security Self-Assessment Guide3 (control areas listed in
Table 1); the Computer Security Act of 1987; and GISRA.

Table 1. NIST Security Control Areas

    Management Controls               Operational Controls                     Technical Controls
•    Risk Management             •    Personnel Security                   •    Identification and
•    Review of Security          •    Physical Security                         Authentication
     Controls                    •    Production, Input/Output             •    Logical Access Controls
•    Life Cycle                       Controls                             •    Audit Trails
•    Certification and           •    Contingency Planning
     Accreditation               •    Hardware and System Software
•    System Security Plan             Maintenance
                                 •    Data Integrity
                                 •    Documentation
                                 •    Security Awareness, Training,
                                      and Education
                                 •    Incident Response Capability


2
 Office of Management and Budget. 1996. Circular No. A-130: Management of Federal Information
Resources. Washington, D.C.: Office of Management and Budget Executive Office.
3
 National Institute of Standards and Technology. 2001. Security Self-Assessment Guide for Information
Technology Systems, NIST Special Publication 800-26. Gaithersburg, MD: National Institute of Standards
and Technology.



                                                   5
U.S. Department of Commerce                                Final Inspection Report OSE-15078
Office Of Inspector General                                                   September 2002

Our fieldwork was conducted from March through May 2002. We held an exit
conference on July 19, 2002, with the NIST deputy director, acting CIO, computer
security officer, and members of their staff. NIST officials generally agreed with our
findings and recommendations.




                                            6
U.S. Department of Commerce                                  Final Inspection Report OSE-15078 

Office Of Inspector General                                                     September 2002


                       FINDINGS AND RECOMMENDATIONS

I.     NIST Is Taking Steps To Improve Its Information Security Program

OMB Circular A-130 and GISRA require that federal agencies develop, implement, and
administer agency wide information security programs that include policies, procedures,
and controls that afford security protections commensurate with the risk and magnitude
of harm. GISRA further requires that agencies:

       •	   ensure that information security plans are in effect throughout the life cycle of
            the system,
       •	   establish appropriate levels of security,
       •	   periodically test and evaluate security controls,
       •	   designate a security official who reports to the CIO,
       •	   train personnel with information security responsibilities,
       •	   provide security awareness training, and
       •	   establish procedures for detecting and responding to computer incidents.

Our evaluation found that NIST has taken several steps to make its information security
program more effective and bring it into compliance with current departmental and
federal IT security policies. For example:

       •	   In FY01, NIST increased its computer security staff from one full-time staff
            member to four to better assist operating units with improving their security
            posture and compliance with policies, develop formal security awareness and
            training programs, and address security issues resulting from the rapid
            expansion in NIST’s use of information technology.

       •	   NIST also developed and published issue-specific information security
            policies, procedures, and guidance that address current and relevant concerns,
            such as, the computer intrusion response team operating policy, incident
            reporting procedures, the undesirable e-mail policy, the firewall policy, the
            information technology resources access policy, and communications, security
            planning, and telecommuting policies.

       •	   The NIST information security officer developed and posted to the security
            web site a system security plan template, guidance, and a list of frequently
            asked questions to assist unit computer security officers in developing their
            system security plans. Also posted to the security web site were templates for
            the NIST SP 800-26 self-assessment questionnaire and a contingency plan
            based on NIST SP 800-34.

       •	   NIST hired a contractor to support, throughout FY02, completion of risk
            assessment activities that involves development of a comprehensive risk
            assessment methodology, a broad-based risk assessment, a focused risk




                                              7
U.S. Department of Commerce                                 Final Inspection Report OSE-15078 

Office Of Inspector General                                                    September 2002


             assessment for four identified critical systems, and preparation of the FY02
             GISRA report.

        •	   NIST developed and implemented a formal information security awareness
             and training program. All new employees, as part of their orientation, are
             briefed by the IT Security Office on the NIST Information Security Program,
             proper use of NIST's information resources, and procedures for reporting
             computer incidents. (In April 2002, NIST held its first “Annual Computer
             Security Day” at the Gaithersburg and Boulder campuses, in an effort to
             initiate periodic refresher training. The one-day event included guest
             speakers, updates on various computer security efforts, information on NIST
             Computer Security Division services, and information on vendor products.)

        •	   NIST also established and implemented a formal and documented information
             security incident reporting and handling process consistent with OMB
             Circular A-130 and GISRA requirements. As part of this effort, NIST fielded
             an intrusion detection system (IDS). Data from the IDS and firewalls are
             transmitted to the incident response team for review and analysis and
             electronically transmitted to the General Services Administration’s Federal
             Computer Incident Response Center (FedCIRC) for analysis.

II. 	   Information Security Policy and Procedures Are Missing Key Control
        Elements

While NIST is taking steps to improve its information security program, its security
program policy is missing critical elements, and certification and accreditation
procedures need to be strengthened.

A.	     NIST Lacks A Comprehensive Security Program Policy

An effective information security program requires clear direction from senior
management. Senior management must assign security responsibilities to organizational
elements and individuals and must formulate the security policies that become the
foundation for the organization’s security program. These policies must be based on an
understanding of the organization’s mission priorities and the assets and business
operations necessary to fulfill them. They are also the primary mechanism by which
management communicates its views and requirements and establishes cost-effective
organizational and system security controls.

Chapter 11 of NIST’s Administrative Manual establishes the foundation for NIST’s
security program and its use by the operating units. It specifies policies regarding the
security of computing resources and assigns roles and responsibilities for information
security to organizational elements.

We found, however, that the manual is missing critical information security control
elements required by GISRA. Specifically, the policy does not assign responsibilities to
the director of NIST and to the CIO for developing, implementing, and maintaining an


                                              8
U.S. Department of Commerce                                  Final Inspection Report OSE-15078
Office Of Inspector General                                                     September 2002

agencywide security program. The policy also lacks key controls, including risk
management, review of security controls, life cycle management, certification and
accreditation, and contingency planning. As discussed in this report, improvements are
needed to better implement these controls.

Establishment of a comprehensive information program that includes a security
management structure and a documented up-to-date security plan or policy is required for
the protection of sensitive data and resources. Protecting mission critical data is essential
to the success of NIST’s information security program.

On its computer security web site, NIST has posted a document titled “Recommended
NIST Computer Security Procedures,” but it contains policies, not procedures. We were
told the document was so titled because of the difficulty getting a policy document
approved; it was reportedly easier to circulate this document under the guise of
“procedures.” Consequently, there is confusion because required baseline security
policies are stated as “recommended” procedures, which by definition, do not have the
same impact as required policy. Incorporating the appropriate sections of this document
into NIST’s security program policy would reduce confusion and provide users with a
single, comprehensive policy statement.

B.     Draft Certification and Accreditation Procedures Should Be Strengthened

OMB Circular A-130 requires senior management officials whose mission could be
adversely affected by security weaknesses to formally authorize the use of a system
before it becomes operational. This authorization, also referred to as accreditation,
denotes that the manager understands and accepts responsibility for risks associated with
putting the system into operation. Authorization is based on a certification, the formal
assessment of the management, operational, and technical controls. The security plan
documents the system’s protection requirements and security controls currently in effect.
The certification along with the security plan forms the basis for management's decision
to authorize processing. A system should be reauthorized following any significant
change or every three years at minimum, more often where risk and potential magnitude
of harm are high.

NIST’s policy assigns the role of authorizing official to the CIO but not to the manager
whose mission the system supports. The rationale is that the CIO is responsible for
NIST’s technology infrastructure, and because most systems are tied to that
infrastructure, vulnerabilities in one system would leave the entire network vulnerable.
For those interconnected systems, NIST should designate the senior management official
and the CIO co-accrediting officials since the mission of both managers could be
adversely affected by information system security weaknesses. For standalone systems,
the senior mission manager can be the single accrediting official.




                                              9
U.S. Department of Commerce                                    Final Inspection Report OSE-15078
Office Of Inspector General                                                       September 2002

Recommendations

We recommend that the director of NIST ensure that NIST managers take the following
actions to achieve compliance with GISRA and other applicable laws, regulations and
guidance:

1. 	 Update and expand Chapter 11 of the Administrative Manual to provide a
     comprehensive information security program policy:

         a. 	 Ensure that all roles and responsibilities for information security, including
              those of the director and CIO, are explicitly identified and documented and
              consistent with GISRA requirements.

         b. 	 Review the security document, “Recommended Computer Security
              Procedures,” for incorporation of appropriate sections into Chapter 11 as
              policy, and supplement it with additional policy and procedures as needed.

2. 	 Revise policy on accreditation to designate as accrediting or co-accrediting officials
     those senior officials whose mission could be adversely affected by information
     system security weaknesses.

Synopsis of NIST’s Response

The response stated that a revision to Chapter 11.02 of the NIST Administration Manual,
which expands the information security policy, has been drafted and is being reviewed by
management. A modification to the certification and accreditation policy has also been
drafted making operating unit directors and the NIST CIO co-accrediting officials. The
response noted that this policy change will not be implemented until FY03; in FY02,
systems will be accredited only by the operating unit directors.

III. 	   Management Controls Are Not Fully Implemented and Schedules Are
         Unrealistic For Achieving Adequate Product Content and Quality

Senior management officials are responsible for controlling risks within their information
systems. Management controls include risk management, review of security controls, life
cycle management, certification and accreditation, and system security plans. At NIST,
risk assessments have not been completed, security plans have not been finalized, and the
majority of its systems are operating under interim authority (that is, they have not been
accredited). Schedules for completing these tasks are too aggressive to provide the
intended degree of assurance.

A. 	     Risk Assessments Have Not Been Completed

GISRA requires program officials to determine and assess risks to the operations and
assets they control. OMB Circular A-130 no longer requires agencies to prepare formal
risk analyses but does require them to use a risk-based approach to determine adequate



                                               10
U.S. Department of Commerce                                  Final Inspection Report OSE-15078
Office Of Inspector General                                                     September 2002

security. This means security must be commensurate with the risk and magnitude of
potential harm resulting from the loss, misuse, or unauthorized access to or modification
of information. Risk assessments should incorporate (1) the value of the system or
application, (2) the possible costs of enacted threats or exploited vulnerabilities, and (3)
the effectiveness of current or proposed safeguards. Assessing risk to a system is an
ongoing necessity, ensuring that new threats and vulnerabilities are identified so
appropriate security measures can be implemented.

Although we found that none of NIST’s 109 identified operational systems have
documented risk assessments, in March 2002 during our evaluation, NIST awarded a
contract to develop a comprehensive risk assessment methodology and conduct a broad-
based risk assessment and a focused risk assessment for four critical systems. Once
developed, the risk assessment methodology will be used by unit security officers to
complete their individual risk assessments. NIST expected the methodology to be
completed on June 30, 2002, and required the remaining risk assessments be completed
by July 26, 2002. As of July 2, 2002, the methodology was received and distributed to
several operating units for feedback. However, at the time of our exit conference on July
19, the assessment methodology had not been distributed to all operating units for use.

B.     Systems Are Operational with Only Draft Security Plans in Effect

Security plans provide an overview of the system’s security requirements and describe
the methods used to assess the nature and level of risk to the system. These plans are
based on an analysis of the major factors in risk management: the value of the system or
application, threats, vulnerabilities, and the effectiveness of current or proposed
safeguards. At NIST, the unit security officer, who represents the business area that will
use the system, works with the system owner to prepare and maintain the plan. The
Computer Security Act of 1987 requires that security plans be reviewed annually and
revised as needed to ensure that security controls can handle significant changes to the
system as well as rapidly changing threats.

All of NIST’s inventoried systems have draft security plans. Between March and April
2002, the NIST security officer informed all system owners of the schedule requiring
final security plans for all systems to be completed by July 26, 2002.

C.     Systems Are Not Accredited

OMB Circular A-130 requires management officials to formally authorize, based on an
assessment of the management, operational, and technical controls, the use of a system
before it becomes operational. This accreditation denotes that the manager understands
and accepts responsibility for risks associated with putting the system into operation. The
security plan establishes and documents system protection requirements and security
controls in place, and thus forms the basis for management’s decision to authorize
processing.




                                             11
U.S. Department of Commerce                                  Final Inspection Report OSE-15078
Office Of Inspector General                                                     September 2002

We found that with the exception of two systems, all of NIST's operational systems are
operating without accreditation. Although these systems have been granted interim
authority to operate, the lack of accreditation indicates that management has neither
formally reviewed the controls nor explicitly accepted the associated risk, and therefore
there is no assurance that NIST’s operational systems are adequately protected. NIST is
requiring that all documentation needed to support accreditation be submitted to the
information security officer by August 15, 2002.

D.     Deadlines for Security Plans and Accreditations Are Unrealistic

Requirements for security plans and accreditations are not new. For example, the
Computer Security Act, passed in January 1988, mandated federal agencies to establish,
within one year, a plan for the security of each of its computer systems and to revise the
plan annually if necessary. However, many federal agencies, including NIST, have not
fully implemented these requirements. As a result of GISRA and oversight by OMB and
the Department, they are now under intense pressure to do so. Therefore, the Department
has established a deadline for completion and approval of all security plans by the end of
September 2002. In response, NIST is requiring all final security plans by July 26; it also
has established a deadline for accreditation packages by August 15 and completion of
accreditation by August 30.

To meet these deadlines, NIST posted guidance to units on its web site that established
milestones for final system security plans, completed certifications, and submission of
accreditation packages for its 109 identified operational systems as described in Figure 2.
We believe that these milestones do not allow enough time for quality processes and
products. Furthermore, although NIST received a risk assessment methodology from its
contractor on July 2, at the time of our exit conference (July 19), the methodology had
still not been distributed to all units so that they could conduct their risk assessments. As
all the future dates depend on the risk assessments having been done by July 26, this
delay has ramifications for all subsequent dates. Given this schedule slippage, we are
concerned that the current schedule will not allow sufficient time for the remaining work
in this area.

We concur that these important activities need to be completed as soon as possible, but
are concerned about the quality of the plans and certifications that will result from this
aggressive schedule. Given the delay, the proposed schedule appears to place an
unreasonable burden on the information security staff, which needs sufficient time to
ensure the appropriate product content and quality for the security plan and accreditation
package submissions before they are approved. NIST needs to ensure that its security
plans and certifications and accreditation are of sufficient quality to impart the intended
degree of assurance.




                                             12
U.S. Department of Commerce                                          Final Inspection Report OSE-15078 

Office Of Inspector General                                                             September 2002





Figure 2.       Timeline for Information Security Activities




      Contract awarded to develop risk assessment methodology


                             Risk assessment methodology received by ISSO July 2, 2000


                                              Due for all 109 identified systems:
                                                Risk Assessments
                                                Security plans
                                                Contingency plans

                                                                         Accreditation
                                                                         Packages Due          Accreditations Completed




     3/30/02              6/30/02              7/26/02               8/15/02                9/01/02




        Milestone accomplished



        Milestone not met


        Milestone in jeopardy for appropriate content and quality





                                                  13
U.S. Department of Commerce                                       Final Inspection Report OSE-15078
Office Of Inspector General                                                          September 2002

E.      System Inventory May Not Reflect Actual Number of Operational Systems

During our evaluation we identified three Advanced Technology Program operational
systems (electronic submission system, electronic proposal review, and proposal
management system) that were not included in NIST’s Sensitive Information Technology
System inventory. The inventory is used to identify and track status of information of all
systems subject to security controls (risk assessments, security plans, and accreditation).
Our concern is that there may be additional systems at NIST that have not been identified
and need to be added to the inventory. If systems are omitted from the inventory, they
may not receive the attention needed to ensure that their security is effectively managed.
Guidance on determining how to identify systems subject to security controls is contained
in the security planning’s “frequently asked questions” section on NIST’s intranet and is
limited to a definition from NIST SP 800-18, Guide for Developing Security Plans for
Information Technology Systems.4 NIST should expand on the key aspects of the
guidance contained in NIST SP 800-18 and ensure that it is readily available to the units
and applied appropriately.

Recommendations

We recommend that the director of NIST ensure that NIST managers take the following
actions:

1. 	 Develop a schedule that allows sufficient time for completing and approving risk
     assessments, security plans, and accreditations to enable staff to provide adequate
     product content and results that impart the intended degree of assurance.

2. 	 Accredit all operational systems and update accreditations for all operational systems
     every three years, at a minimum, or whenever a significant change in the system
     occurs.

3. 	 Extract key aspects of the guidance contained in NIST SP 800-18 on how to identify
     systems subject to security controls and ensure that it is readily available to the units
     and applied appropriately.

4. 	 Review system inventory to ensure that all systems, particularly those subject to
     security controls, are included.

Synopsis of NIST’s Response

The response indicated that the risk assessment methodology was delivered to NIST’s
operating units on July 22, and the deadline for completing system accreditation was
extended to September 30. It further stated that in FY03, NIST’s IT security officer will


4
  National Institutes of Standards and Technology. 1998. Guide for Developing Security Plans for
Information Technology Systems. Gaithersburg, MD: National Institutes of Standards and Technology.



                                                  14
U.S. Department of Commerce                                      Final Inspection Report OSE-15078
Office Of Inspector General                                                         September 2002

conduct an independent review of certified and accredited systems and make
recommendations to the NIST CIO.

NIST’s response also noted that system owners were provided with additional guidance
on system boundaries and directed to reassess the system inventory. The reassessment
resulted in an inventory of 109 operational systems.

OIG Comments

Given the complexity and importance of the activities required to accomplish
certification and accreditation, including testing the security controls to ensure that they
perform as intended, we remain concerned that even with the schedule extension, there is
not enough time to adequately complete all of the requisite activities and documentation.
We believe that the accreditations should be considered provisional until there is
confirmation that each system has all needed security controls and that these controls
have been tested to ensure they perform as intended.

The previous inventory had 130 operational systems. The revised number (109) is
reflected throughout our final report.

IV. 	   Security Controls Are Not Extended to External Collaborators and
        Researchers

During our review, we found problems with NIST’s management of user accounts for
external collaborators (researchers who do not reside at NIST’s Gaithersburg or Boulder
campus) left NIST’s systems vulnerable to unauthorized access. Under the current
process, system administrators and unit information security officers who are responsible
for maintaining access to NIST resources are not always informed when external
collaborators no longer need access to NIST resources. Often they find out months or
even years later that a person no longer requires access and that the account should have
been closed. This situation was documented in Manufacturing Engineering Laboratory’s
system security plan as an operational controls weakness. A similar issue was noted in
the Department’s Consolidated Financial Statements FY 2001,5 where it was reported
that NIST needed to implement procedures to ensure that departing employees’ system
user accounts are removed from computer systems in a timely manner

NIST is currently addressing this issue for its own employees and researchers, working
on each campus. NIST is also developing systems to track employees and resident guest
researchers; however, these systems do not address collaborators and researchers who are
not on NIST campuses but who use NIST computing resources.



5
 U.S. Department of Commerce. 2002. Improvements Needed in the General Controls Associated with the
Department’s Financial Management Systems, Consolidated Financial Statements FY 2001. Washington,
D.C.: U.S. Department of Commerce.



                                                15
U.S. Department of Commerce                                                Final Inspection Report OSE-15078
Office Of Inspector General                                                                   September 2002

Recommendation

We recommend that the director of NIST ensure that NIST managers verify that systems
administrators and information security officers are promptly notified when external
researchers and collaborators no longer need access to NIST resources.

Synopsis of NIST’s Response

The response noted that in FY01, NIST began developing a system for tracking guest
researchers who have a NIST badge and that the system will be expanded to include
tracking of all guest researchers and external collaborators.

V.          Risk Levels for Positions Have Not Been Properly Assigned

NIST has numerous positions that involve policymaking, major program responsibility,
and other duties demanding a significant degree of public trust. These types of positions
are normally designated as high- or moderate-risk positions. Agency heads are required
to designate every competitive service position within the agency at a high-, moderate-,
or low-risk level as determined by the position’s potential for adversely affecting the
efficiency and integrity of government programs and operations.6 These designations are
important because they determine the depth of background investigation required.

We reviewed risk level designations for positions held by employees of the Advanced
Technology Program and the Mechanical Engineering, Information Technology, and
Physics laboratories. With the exception of ITL, all had positions with risk designations
that were inconsistent with their levels of responsibility and trust. For example, system
administrators and information security officers—whose work responsibilities directly
affect government programs and operations—were designated as low risk; thus
employees filling these positions had not received the level of background investigation
commensurate with the risk level of their responsibilities. The ITL managers, however,
had already reviewed employees’ position designations, assigned appropriate risk levels,
and submitted paperwork to conduct the appropriate background investigation required
by their new proposed designation.

In a previous effort to identify the criteria used Department-wide to determine
appropriate risk levels and their associated background investigations, we noted a lack of
guidance from the Department’s Office of Human Resources Management (OHRM) and
the Office of Security (OSY). We addressed this issue in our report, Program for
Designating Positions According to Their Risk and Sensitivity Needs to Be Updated and
Strengthened, Final Inspection Report No. OSE-14486/September 2001, which includes
recommendations that the Department provide to operating units, updated guidance for
determining appropriate risk levels and their associated background investigations. Both
OSY and OHRM agreed to provide updated guidance based on OPM regulation and
guidance and ensure that roles and responsibilities of heads of operating units,

6
    Positions designated as low risk are not considered “public trust” positions.



                                                         16
U.S. Department of Commerce                                                 Final Inspection Report OSE-15078
Office Of Inspector General                                                                    September 2002

subordinate managers and supervisors, servicing personnel officers, and security officers
are clearly stated. Thus, NIST needs to ensure that its efforts to review and appropriately
adjust the risk levels associated with sensitive positions are consistent with the
Department’s forthcoming guidance.

Recommendation

We recommend that the director of NIST take the necessary actions to ensure that NIST
managers work with the Department’s Office of Human Resources and Office of Security
to verify that all current positions are properly designated according to risk and that
appropriate background investigations are conducted for all NIST staff.

Synopsis of NIST’s Response

The response stated that the director will issue a memorandum to NIST operating units
directing that all personnel who hold system administrator privileges to access any NIST
server must have an ADP risk level of either moderate or high.

OIG Comments

This action will only partially address our recommendation. In addition to system
administrator positions, NIST has numerous positions that involve policymaking, major
program responsibility, and other duties that demand a significant degree of public trust.
These types of positions are normally designated as high- or moderate-risk. All positions
should be reviewed to determine whether they are properly designated according to risk.

VI.      NIST Has Not Implemented a Capital Asset Planning Process

The 1996 Clinger-Cohen Act attempted to address longstanding problems and eliminate
failures in the federal government’s acquisition and use of IT by calling for agencies to
establish a capital planning and investment control process—applicable to all IT capital
assets7—to help ensure that appropriate IT projects are funded and well managed and that
planning, budgeting, acquisition, and management of IT resources are integrated. In
response, Commerce established an IT capital planning and investment control process at
the Department level for projects requiring special attention8 and required each operating
unit to implement a process of its own.


7
  OMB Circular A-11 defines an IT capital asset as IT that is used by the federal government and has an
estimated useful life of two years or more. Capital assets do not include items acquired for resale in the
ordinary course of operations or items that are acquired for physical consumption, such as operating
materials and supplies.

8
  Projects that merit special attention are (1) Department-wide or interagency systems; (2) those with
political sensitivity, mission criticality, or risk potential; (3) those with life cycle costs higher that $25
million; or (4) those experiencing difficulties.




                                                        17
U.S. Department of Commerce                                            Final Inspection Report OSE-15078
Office Of Inspector General                                                               September 2002

GISRA and OMB policy note that information security must be a component of the
system’s architecture and implemented and managed throughout the system’s life cycle.
Thus agencies are required to identify and budget for security measures and resources
needed to protect their IT investments throughout the investment’s life cycle. OMB
Circular A-11,9 stipulates that each agency’s annual budget request, in Exhibit 53,
“Agency IT Investment Portfolio,” must include security costs for its IT projects as a
percentage of the total system cost or project investment. Also, a capital asset plan
(Exhibit 300) must be provided for each major IT project;10 it must indicate whether the
project’s information security meets GISRA requirements and describe the security and
privacy measures to be used.

Despite these objectives and requirements, NIST does not have an IT capital planning
and investment control process. As a consequence, it lacks a mechanism to ensure that
information security is properly planned and budgeted. Its life cycle management manual
for IT, which addresses capital investment planning, is in draft and has not been
implemented; and its IT Policy Council, which is to perform oversight of the process, has
not begun to do so.11 An official in the NIST CIO’s office told us that this process will
be prototyped in ITL prior to NIST-wide implementation, but no date has been scheduled
for finalizing and implementing the process.

In its budget guidance for FY 2003, the NIST budget office advised that because of
increased scrutiny of IT expenditures, particularly those related to information security,
additional detail would be required to support budget requests. Specifically, each unit
was required to designate how much of its total IT spending was for information security,
with costs presented in five categories: program planning and management; evaluation
and testing; technical controls; security awareness, training, and education; and incident
response. Each unit’s information was consolidated into a NIST-wide Exhibit 53.
However, the NIST CIO’s office provided neither guidance nor review of these costs,
leaving their validity questionable. A capital asset planning process would assist NIST in
integrating the IT and budget processes.

In guidance for IT budgeting for FY 2004, the Department CIO identified NIST’s Grants
Management Information System as a major system requiring a capital asset plan,
reflecting OMB’s increased attention to grants management. The guidance also stated
that all new IT investments, as well as modifications and enhancements of existing
systems which exceed base funding, must be described in capital asset plans at a level of

9
 Office of Management and Budget. 2001. Circular A-11        Washington, D.C.: Executive Branch Office of
Management and Budget.
10
   A major IT project requires special management attention because of its (1) importance to an agency’s
mission; (2) high development, operating, or maintenance costs; (3) high risk; (4) high return; or (5)
significant role in the administration of an agency’s programs, finances, property, or other resources. Major
IT projects must have the concurrence of the chief information officer.
11
   NIST’s IT Policy Council consists of operating directors, the CIO, a technology services senior
representative, Director for Administration/Chief Financial Officer senior representative, operating unit
deputy directors, and a Management Advisory Council representative.


                                                     18
U.S. Department of Commerce                                 Final Inspection Report OSE-15078
Office Of Inspector General                                                    September 2002

detail commensurate with the size of the investment. The guidance also stated that IT
initiatives must be a product of the operating unit’s capital planning and investment
control process.

Without a planning and control process developed to deal with IT investments and
information security specifically, NIST cannot ensure that IT projects are appropriately
selected, planned, and managed; that information security is a factor in each system’s
design and a management consideration throughout its life cycle; or that information
security cost estimates are valid.

Recommendations

We recommend that the director of NIST take the necessary action to ensure that a
deadline is established for finalizing and implementing an IT capital planning and
investment control process that includes information security with the budget process.

Synopsis of NIST’s Response

The response stated that a capital investment planning process was begun in FY02 and
will be fully implemented in FY03.

VII. 	 Proactive Attention from NIST Senior Management Could Improve
       Information Security

To safeguard the privacy, confidentiality, and security of federal information, GISRA
requires the head of each agency to ensure that the agency’s information security plans
are carried out throughout the life cycle of each of the agency’s systems. The agency
head is also responsible for promoting security as an integral component of that agency’s
business operations; and agency managers and program officials are required to ensure
that effective security policies and procedures are implemented throughout the life cycle
of every IT system.

As the discussion in the preceding section indicates, until recently, information security at
NIST has not received adequate attention, and significant weaknesses exist in planning,
budgeting, implementation, review, and oversight. Thus there has been a lack of follow
through in carrying out fundamental responsibilities, including:

       •	   establishing comprehensive information security policies and procedures;

       •	   identifying, assessing, and understanding risks to NIST’s IT assets;

       •	   determining information security needs commensurate with the levels of risk;

       •	   planning, implementing, and testing controls that adequately address risk;

       •	   continually monitoring and evaluating policy and effectiveness of information
            security practices;


                                             19
U.S. Department of Commerce                                      Final Inspection Report OSE-15078 

Office Of Inspector General                                                         September 2002




        •	   ensuring appropriate personnel security controls are implemented; and

        •	   developing a capital planning and investment control process and integrating
             information security into it.

In June 2001, to reinforce the Department’s management of IT and its capital investment
planning, the Secretary issued a memorandum directing all operating units to appoint a
CIO who would report to the head of the operating unit or the principal deputy, as well as
to the Department’s CIO.12 The objective: to have a senior official in each operating unit
with the stature, skills, and clout to strengthen IT management. The CIO is to be
responsible for advising the operating unit’s senior management on all aspects of IT and
is to concur in the budgeting and expenditure of funds for IT by the unit. To further
highlight the importance of information security as a senior management responsibility,
the Secretary of Commerce, in a July 2001 memorandum, directed secretarial officers and
heads of operating units to give information security high priority and sufficient resources
and to invest the time necessary to assure information security improvements. The
memorandum further directed these officials to work closely with and support their
operating unit CIOs with respect to information security and to allocate sufficient
resources at the operating unit level necessary for the protection of Commerce data and
systems.

Currently, however, NIST does not have a CIO; its CIO office resides in ITL and reports
to ITL’s acting director, who also serves as the acting CIO. We believe that an
empowered CIO—that is, one that has the support of the NIST director and sufficient
resources—is essential for improving NIST’s information security program, as well as its
management of its IT resources in general. As GISRA makes clear, however,
information security is the responsibility not solely of the CIO but of senior management
across the organization. Thus, the awareness, support, and proactive involvement of
NIST’s senior management are vital to establishing the environment and ensuring the
resources needed to promote an effective information security program.

Recognizing that its IT management needs improvement, NIST is working to define a
new CIO organizational structure intended to enhance its authority and provide a more
effective focus on IT oversight, including information security. Since May, when our
fieldwork was completed, the director of NIST has taken an important step toward
improving IT security at NIST by issuing a memorandum acknowledging his
responsibility for the security of NIST’s data and IT systems. This memo also directs all
members of NIST’s upper management to give IT security a high priority and to ensure
that NIST policies, procedures, and operational environment are exemplary.13

12
  Memorandum from Donald Evans to Secretarial Officers and Heads of Operating Units, “Strengthening
Commerce Information Technology Management,” June 13, 2001.
13
   Memorandum from Arden L. Bement, Jr., to Senior Management Board, “Responsibilities for
Information Technology (IT) Security,” June 11, 2002.



                                                 20
U.S. Department of Commerce                                      Final Inspection Report OSE-15078
Office Of Inspector General                                                         September 2002

Recommendations

We recommend that the director of NIST take the following actions:

1. 	 Ensure that information security receives high priority in accordance with the
     Secretary’s direction.

2. 	 Ensure that senior NIST management officials understand and implement their
     information security responsibilities.

3. 	 Define and implement a new CIO organizational structure, appoint a CIO as soon as
     possible, and ensure that the CIO is provided with the responsibility and authority to
     develop and maintain a NIST-wide information security program.

OIG Comment

Although the response did not address how these recommendations will be implemented,
the NIST director recently sent a memorandum to the NIST operating unit directors
discussing the findings and recommendations of our evaluation and emphasizing his
personal responsibility as director and their responsibility as program managers for good
information security.14 Significantly, the memorandum states:

        NIST’s highly visible mandate as the provider of cyber-security guidance for
        Federal Agencies and icon for commercial and industry software providers and
        users, requires that our own systems meet a “higher standard” of excellence. If
        we are the premier developer of cyber security guidance, we should also be the
        premier performer in the implementation of that guidance!

The memorandum further discusses the need to adopt new approaches to information
security as part of the NIST “lifestyle.” It concludes by pointing our the importance of
all employees understanding their responsibilities for information security, the need for
NIST management to lead and promulgate changes, and the goal of making NIST an
exemplary agency in securing its IT resources.

These are significant steps in addressing the first two recommendations. However, the
third recommendation regarding the CIO remains to be addressed. We again emphasize
the importance of having an empowered CIO to achieve the needed improvements in
information security, in particular, and IT management, in general. We look forward to
receiving your approach to implementing this recommendation when you submit your
action plan.




14
 Memorandum from Arden L. Bement, Jr., Director, for OU Directors, “NIST IT Security and the
Government Information Security Reform Act (GISRA) Audit,” September 6, 2002.


                                                21
U.S. Department of Commerce                                 Final Inspection Report OSE-15078
Office Of Inspector General                                                    September 2002

APPENDIX A
                Additional Information on Security Roles within NIST

Computer Security Officer – Appointed by the Information Technology Laboratory
director, with the approval of the NIST Deputy Director, the NIST Computer Security
Officer is charged with the following:

       •	   Developing computer security policies and procedures for NIST.

       •	   Coordinating NIST computer policy, computer security actions, and
            incident reporting with the Department of Commerce and other outside
            organizations.

       •	   Ensuring periodic training opportunities for NIST staff in the areas of
            computer security, awareness of problems, and good practices.

       •	   Helping with the planning, budgeting, and implementation of

            computer security functions for NIST. 


       •	   Serving as a resource on effective computer security practices 

            for NIST management and staff. 



Operating Unit Directors - Appoint the computer security officer responsible for
the security of all information resources in the unit and, for units with multiple
sites, appoint a computer security officer for each site. Unit directors are also
responsible for assessing risks of loss of unit information resources and
implementing appropriate levels of security for their facilities, software, data, and
contracted services.

OU Computer Security Officers - Serve as contact points for all computer
security related issues for the unit; represent their unit in the development of
NIST computer security policy; and recommend to the unit director how best to
implement the NIST computer security policy within their unit.

Division Chiefs, Group Leaders, and Project Managers - Ensure that the
correct level of computer security is implemented for each resource, given the
risks, and that employees have the necessary awareness and computer security
training.

System Administrators - Responsible for the computer security program and
procedures for systems under their control.

All authorized users (employees and collaborators) - Responsible for complying with
policies and procedures on the use of information resources and for reporting to the
appropriate unit computer security officer and the NIST computer security officer any
suspected breach of security.


                                             22
